      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General


                                                                         Washington, D.C. 20201




May 17, 2011

TO:            Yvette Roubideaux, M.D., M.P.H.
               Director
               Indian Health Service


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Audit of the Indian Health Service’s Internal Controls Over Monitoring of
               Recipients’ Compliance With Requirements of the American Indians Into
               Psychology Program (A-09-10-01007)


The attached final report provides the results of our review of the Indian Health Service’s
internal controls over monitoring of recipients’ compliance with certain requirements of the
American Indians Into Psychology Program.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov.
We look forward to receiving your final management decision within 6 months. Please refer to
report number A-09-10-01007 in all correspondence.


Attachment
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




   AUDIT OF THE INDIAN HEALTH
SERVICE’S INTERNAL CONTROLS OVER
   MONITORING OF RECIPIENTS’
COMPLIANCE WITH REQUIREMENTS OF
   THE AMERICAN INDIANS INTO
      PSYCHOLOGY PROGRAM




                        Daniel R. Levinson
                         Inspector General

                            May 2011
                          A-09-10-01007
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Indian Health Service (IHS), an agency in the U.S. Department of Health & Human Services
(HHS), delivers clinical and preventive health services to American Indians and Alaska Natives.
IHS provides care in more than 700 health care facilities, including hospitals and outpatient
clinics. An IHS facility can be operated by IHS, an Indian tribe, or a tribal organization.

Section 217 of the Indian Health Care Improvement Act (IHCIA) of 1976 (P.L. No. 94-437), as
amended, requires IHS to administer the American Indians Into Psychology Program
(Psychology Program). Under the Psychology Program, IHS provides grants to colleges and
universities to develop and maintain psychology career recruitment programs to encourage
American Indians to enter the mental health field. According to information that IHS provided
to us, IHS awarded to three universities Psychology Program grants totaling approximately
$6.5 million for the 11-year period ended July 31, 2008. Pursuant to section 217(c)(2)(D) of the
IHCIA, educational institutions are required to, among other things, provide scholarships to
undergraduate and graduate students to pursue careers in psychology.

Each graduate student who receives a scholarship under the Psychology Program (recipient)
must sign an Indian Health Service Psychology Scholarship Program Contract (the contract) with
the college or university and IHS in which he or she agrees to, among other things, maintain
full-time or part-time enrollment until completion of the approved education program and fulfill
a minimum service obligation. Pursuant to section 217(d) of the IHCIA, the recipient must
complete an active duty service obligation. Specifically, the contract requires the recipient to
fulfill the service obligation by working 1 year for every year of scholarship support received
and to work no less than 2 years. A recipient who fails to meet the education requirements must
repay the Federal Government all funds paid under the contract. A recipient who fails to begin
or complete the service obligation must repay the Federal Government an amount calculated
according to a formula described in section D of the contract.

The Federal Managers’ Financial Integrity Act of 1982 (P.L. No. 97-255) requires each
executive agency to develop internal controls in accordance with standards prescribed by the
Comptroller General and to provide reasonable assurance that funds are safeguarded against
waste, unauthorized use, or misappropriation. The Office of Management and Budget Circular
A-123 states that Federal agency management is responsible for establishing and maintaining
internal control activities to meet the objectives of effective and efficient operations and
compliance with applicable laws and regulations. In addition, the HHS Grants Policy Statement,
part I, requires HHS agencies to maintain stewardship over Federal funds they award.

OBJECTIVE

Our objective was to determine whether IHS had adequate internal controls to monitor
recipients’ compliance with certain requirements of Psychology Program scholarships.




                                                i
SUMMARY OF FINDING

IHS did not have adequate internal controls to monitor recipients’ compliance with certain
requirements of Psychology Program scholarships. Specifically, IHS did not have policies and
procedures to monitor whether recipients had completed their approved education programs or
were fulfilling required service obligations. As a result, IHS could not ensure that all recipients
were in compliance with Psychology Program scholarship requirements.

RECOMMENDATION

We recommend that IHS develop and implement policies and procedures for monitoring
recipients’ fulfillment of education requirements and service obligations for Psychology Program
scholarships.

INDIAN HEALTH SERVICE COMMENTS

IHS concurred with our recommendation and described actions that it had taken or planned to
take to address the recommendation. IHS’s comments are included in their entirety as the
Appendix.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION..........................................................................................................................1

          BACKGROUND .................................................................................................................1
              Indian Health Service ...............................................................................................1
              American Indians Into Psychology Program ...........................................................1
              American Indians Into Psychology Program Scholarship
                Requirements for Recipients .................................................................................2
              Federal Requirements for Internal Controls ............................................................2
              Office of Inspector General Reviews .......................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................................3
               Objective ..................................................................................................................3
               Scope ........................................................................................................................3
               Methodology ............................................................................................................3

FINDING AND RECOMMENDATION .....................................................................................3

          FEDERAL REQUIREMENTS ............................................................................................4

          MONITORING FULFILLMENT OF EDUCATION REQUIREMENTS
           AND SERVICE OBLIGATIONS ....................................................................................4

          RECOMMENDATION .......................................................................................................5

          INDIAN HEALTH SERVICE COMMENTS .....................................................................5

APPENDIX

          INDIAN HEALTH SERVICE COMMENTS




                                                                    iii
                                                INTRODUCTION

BACKGROUND

Indian Health Service

The Indian Health Service (IHS), an agency in the U.S. Department of Health & Human Services
(HHS), delivers clinical and preventive health services to American Indians and Alaska Natives.
IHS provides care in more than 700 health care facilities, including hospitals and outpatient
clinics. An IHS facility can be operated by IHS, an Indian tribe, or a tribal organization.

The Indian Health Care Improvement Act (IHCIA) of 1976 (P.L. No. 94-437), as amended,
authorizes IHS funding to administer programs to attract and recruit qualified individuals into
health professions needed at IHS facilities. These programs are intended to encourage American
Indians and Alaska Natives to enter health professions and to ensure the availability of Indian
health professionals to serve Indians.

American Indians Into Psychology Program

Section 217 of the IHCIA, 1 as amended, requires IHS to administer the American Indians Into
Psychology Program (Psychology Program). 2 Under the Psychology Program, IHS provides
grants to colleges and universities to develop and maintain psychology career recruitment
programs to encourage American Indians to enter the mental health field. According to
information that IHS provided to us, IHS awarded to three universities Psychology Program
grants totaling approximately $6.5 million for the 11-year period ended July 31, 2008.

Pursuant to section 217(c)(2)(D) of the IHCIA, educational institutions are required to, among
other things, provide scholarships to undergraduate and graduate students to pursue careers in
psychology. Section 217(d) requires that each graduate student who receives a scholarship under
the Psychology Program (recipient) complete an active duty service obligation.

According to the terms and conditions of the Psychology Program grant award, scholarships are
for a 1-year period. Additional scholarship support may be awarded to each eligible student for
up to a maximum of 4 years. Educational institutions are responsible for monitoring recipients’
academic progress and providing IHS with, among other things, recipients’ official transcripts at
the end of each academic period and reports identifying recipients with academic problems or
changes in academic status.




1
 The legal citations in this report are to section 217 as it was enacted before the passage of the Patient Protection
and Affordable Care Act, P.L. No. 111-148.
2
 The Indian Health Care Amendments of 1992 (P.L. No. 102-573) added the Psychology Program under
section 217 of the IHCIA.


                                                           1
American Indians Into Psychology Program Scholarship Requirements for Recipients

Each recipient must sign an Indian Health Service Psychology Scholarship Program Contract
(the contract) with the college or university and IHS. Section C of the contract requires the
recipient to, among other things, maintain full-time or part-time enrollment until completion of
the approved education program for which the scholarship award is provided and fulfill a
minimum service obligation.

The contract requires the recipient to fulfill the service obligation by working 1 year for every
year of scholarship support received and to work no less than 2 years. Pursuant to section 217(d)
of the IHCIA, the service obligation may be fulfilled in IHS, in a program conducted under a
contract entered into under the Indian Self-Determination Act, in a program assisted under
Title V of this Act, or in the private practice of psychology if such practice is situated in a
physician or other health professional shortage area and addresses the health care needs of a
substantial number of Indians.

Pursuant to section D of the contract, a recipient who fails to maintain an acceptable level of
academic standing in the course of study, voluntarily withdraws from the educational institution
before graduating from the program, or is dismissed from the educational institution for
disciplinary reasons must repay the Federal Government all funds paid under the contract. A
recipient who fails to begin or complete the period of obligated service must repay the Federal
Government an amount equal to three times the funds received, plus interest, reduced by the
percentage of the service obligation that was fulfilled.

However, pursuant to section F of the contract, any service or payment obligation is canceled
upon the recipient’s death. In addition, IHS may waive or suspend any service or payment
obligation when compliance by the recipient with the contract becomes impossible or involves
extreme hardship and enforcement of the obligation would be unconscionable.

Federal Requirements for Internal Controls

The Federal Managers’ Financial Integrity Act (FMFIA) of 1982 (P.L. No. 97-255) requires each
executive agency to develop internal controls in accordance with standards prescribed by the
Comptroller General and to provide reasonable assurance that funds are safeguarded against
waste, unauthorized use, or misappropriation. The Office of Management and Budget (OMB)
Circular A-123 provides guidance on implementation of the FMFIA and further defines
management’s responsibility for internal controls in Federal agencies.

Office of Inspector General Reviews

This report covers IHS’s internal controls for monitoring recipients’ compliance with education
and service obligation requirements of Psychology Program scholarships. Separate reports
address IHS’s internal controls for monitoring the requirements of IHS’s Health Professions
Scholarship program (A-09-09-00044), Loan Repayment Program (A-09-10-01005), and
Nursing Program (A-09-10-01006).



                                                2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether IHS had adequate internal controls to monitor
recipients’ compliance with certain requirements of Psychology Program scholarships.

Scope

We reviewed IHS’s internal controls over its monitoring of recipients’ compliance with certain
requirements of Psychology Program scholarships. We limited our review of internal controls to
those controls for monitoring recipients’ fulfillment of education requirements and service
obligations.

We limited our review to the documentation that IHS maintained for the 29 scholarship
recipients that IHS identified as funded for the 11-year period ended July 31, 2008, and to
discussions with IHS officials. We did not review activities funded under Psychology Program
grants other than scholarships awarded to recipients.

We performed our fieldwork at IHS Headquarters in Rockville, Maryland.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    obtained an understanding of the Psychology Program and its education and service
        obligation requirements;

   •    reviewed IHS’s paper and electronic documentation for the 29 scholarship recipients; and

   •    interviewed IHS officials to verify whether IHS monitored the 29 recipients’ fulfillment
        of education requirements and service obligations.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATION

IHS did not have adequate internal controls to monitor recipients’ compliance with certain
requirements of Psychology Program scholarships. Specifically, IHS did not have policies and
procedures to monitor whether recipients had completed their approved education programs or


                                                3
were fulfilling required service obligations. As a result, IHS could not ensure that all recipients
were in compliance with Psychology Program scholarship requirements.

FEDERAL REQUIREMENTS

The FMFIA, section 2(d)(1)(A), states: “… [I]nternal accounting and administrative controls of
each executive agency shall be established in accordance with standards prescribed by the
Comptroller General, and shall provide reasonable assurances that … (ii) funds, property, and
other assets are safeguarded against waste, loss, unauthorized use, or misappropriation ….”

OMB Circular A-123, section II, states: “Internal control is an integral component of an
organization’s management that provides reasonable assurance that the following objectives are
being achieved: effectiveness and efficiency of operations … and compliance with applicable
laws and regulations.” Section II also states: “Management is responsible for developing and
maintaining internal control activities … to meet the above objectives.” Section III.A. states:
“… [Management] should design management structures that help ensure accountability for
results. As part of this process, agencies and individual Federal managers must take systematic
and proactive measures to develop and implement appropriate, cost-effective internal control.”

The HHS Grants Policy Statement, part I, requires HHS agencies to maintain stewardship over
Federal funds they award. An agency is required to monitor its awards for potential problems,
using available information, for as long as the agency has a financial interest in the project or
activity as a result of program requirements.

MONITORING FULFILLMENT OF EDUCATION REQUIREMENTS
AND SERVICE OBLIGATIONS

IHS did not have policies and procedures to monitor recipients’ fulfillment of education
requirements and service obligations for Psychology Program scholarships. IHS officials stated
that they did not develop these policies and procedures because developing policies and
procedures for the Health Professions Scholarship program and Loan Repayment Program was a
higher priority. IHS officials stated that more scholarships were awarded under these two
programs.

Although IHS did not have policies and procedures to monitor recipients’ compliance with
scholarship requirements, IHS officials stated that they attempted to monitor recipients’
compliance with those requirements. In 2008, IHS assigned a new project officer to monitor the
Psychology Program. The project officer stated that, before 2008, the scholarship program office
did not have any records on recipients. To create a record for each recipient, IHS requested from
the college or university the following information: recipient’s name, years funded, scholarship
contracts, and a transcript and/or a diploma. To complete the record, IHS requested by mail
from the recipient at least one of the following documents: an official transcript, a copy of a
diploma, verification of employment, 3 a position description, or a license to practice clinical

3
 Examples of employment verification documentation include a civil service personnel action form, personnel
orders from the U.S. Public Health Service Commissioned Corps, or a letter of hire from a tribal organization.



                                                         4
psychology. However, IHS did not always follow up with the college or university or the
recipient to ensure that IHS received the requested documentation.

Of the 29 recipients we reviewed, we identified 22 recipients who should have completed their
education programs. 4 This determination was based on reviewing IHS’s documentation for the
recipients. IHS did not verify that 12 of those recipients had completed their education
programs. IHS’s documentation related to the 12 recipients did not contain any evidence
demonstrating that the recipients had fulfilled their education requirements, indicating that IHS
staff had not monitored recipients’ compliance with education requirements. The project officer
confirmed that IHS had not verified recipients’ completion of education programs. The project
officer stated that he did not update recipients’ status while they were still in school and added
that he needed to update the files more frequently. For the remaining 10 recipients, IHS’s
documentation contained evidence demonstrating that the recipients had completed their
education programs.

Further, of the 22 recipients who should have completed their education programs, we identified
6 recipients who should have begun their service obligations. 5 This determination was based on
reviewing IHS’s documentation for the recipients. IHS did not verify that the six recipients were
fulfilling their service obligations. IHS’s documentation related to the six recipients did not
contain any evidence demonstrating that the recipients were fulfilling their service obligations,
indicating that IHS staff had not monitored recipients’ compliance with the service obligation
requirement. The project officer confirmed that IHS had not verified recipients’ fulfillment of
service obligations.

RECOMMENDATION

We recommend that IHS develop and implement policies and procedures for monitoring
recipients’ fulfillment of education requirements and service obligations for Psychology Program
scholarships.

INDIAN HEALTH SERVICE COMMENTS

IHS concurred with our recommendation and described actions that it had taken or planned to
take to address the recommendation. IHS’s comments are included in their entirety as the
Appendix.




4
 The remaining seven recipients were in the process of completing their education programs or were no longer
enrolled in the educational institutions.
5
  The remaining 16 recipients consisted of 12 recipients who were in the process of completing licensing
requirements, 2 who had defaulted on their service obligations, 1 who had the service obligation deferred to a later
period, and 1 who had the service obligation waived.


                                                          5
APPENDIX
                                                                                                   Page 1 of2


        APPENDIX: INDIAN HEALTH SERVICE COMMENTS



    DEPARTMENT OF H EALTH & HUMAN SERVICES                                Public Health Servi.:e


                                                                          Indian Health SCNice
                                                                          Rodcville , MO 20852
                 APR05 1011


TO: 	          Inspector General

FROM: 	        Director

SUBJECT: 	     Response to the Office of Inspector Genera! " Audit oflhe Indian Health Service's
               Internal Controls over Monitoring of Recipients' Compliance With Requirements
               orthe American Indians Into Psychology Program (A-09-10-01007)"


The purpose of this memorandum is to respond 10 your February 24 memorandum transmitting
the Office of Inspector General (010) draft report providing the results orlhe QIG "Audit of the
Indian Heaith Service' s Internal Controls over Monitoring of Recipients' Compliance With
Requirements or the American Indians into Psychology Program (A-09· 10·0 I 007)." I appreciate
the opportunity to address your recommcndation.

DIG Recommendation:

(I) We recommend Ihal IHS develop and implement policies and procedures/or moniloring
recipients 'fu(fillmenl ojeducafion reqllirements Gnd service obligafion.vjo/' Psychology
Progrom scholarships.

I HS Response:

We concur. In April 2010, the Indian Health Service (IHS) bcgan an initiative to develop and
implement more effective internal controls over recipients' compliance with requi rements of
Amcrican Indians into Psychology Progrwn Scholarships. The initiative's objectives include
processes to monitor and document rceipients' fulfillmcnt of education requirement, and their
completion of required service obligations.

Specifically, THS will monitor recipients' fulfillment of education requirements such as
maintaining enrollmcnt until completion or their education program while meeting the minimum
level of academic standing. IHS will also monitor recipients' completion of required service
obligations (recipients must fulfill a minimum service obligation of two ycars).

Plan to Strcngthen Internal Controls:

   • 	 The Agency completed an IHS American [mlians into Psychology Program Policy and
       Procedures on February 24, 2010 and disseminated to all grantees and scholarship
       recipients.
   • 	 The Agency is currel1lly revising its Psychology Student Handbook to address the 

       technical details for monitoring recipicnt compliance with program policies and 

                                                                                                 Page 2 of2




Page 2 - Inspector General


       procedures and the timdinc for the project ofliccrs fimction related to this monitoring
       process. This handbook is 10 be complete by December 20 II,
   • 	 The Project Ofliccr (PO) is now required to contact each scholarship recipient.
       semiannually, throughout all phases of their "active" scholarship cycle with their
       university. This communication will be documented in each recipients file and the
       master excel spreadsheet.
   • 	 The PO will have quanerly conference calls with each university grantee to address any
       problems or concerns Iho;:y may have.

Thank you for the opportunity to respond to your February 24 memorandum. If you have any
questions com:cming this response, please contact C DR Michael D. Weahkee. Deputy Diredor
fur Personnel Functions, Office of Management Services. IHS. at (30 I) 443-6290.




                                               YveHe Roubideaux. M,D .. M,P.H.
